OIG Investigative Reports Press Release Sacramento CA., 02/27/2014 - San Leandro Man Sentenced to 27 Months In Prison for Student Aid Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
San Leandro Man Sentenced to 27 Months In Prison for Student Aid Fraud Scheme
FOR IMMEDIATE RELEASE
Thursday, February 27, 2014
www.justice.gov/usao/cae/
usacae.edcapress@usdoj.gov
Docket #: 2:12-CR-323 MCE
SACRAMENTO, Calif. — Myron Jacobs, 41, of San Leandro, was sentenced today by United States District Judge Morrison C. England Jr. to 27 months in prison and ordered to pay $66,748 in restitution for mail fraud, associated with a student aid fraud scheme, United States Attorney Benjamin B. Wagner announced.
According to court documents, between August 1, 2009, and December 31, 2011, Stacey and Myron Jacobs engaged in a scheme to defraud the Department of Education by recruiting individuals to act as straw students at various community colleges and applying for financial aid assistance in their names. The recruited straw students were not active students at these schools and many did not intend to become active students at these schools. Stacey Jacobs had the financial aid funds sent to addresses associated with her or to others with whom she was associated. Due to the scheme, the Department of Education lost at least $66,748.
This case is the product of an investigation by the U.S. Department of Education OIG. Assistant United States Attorney Lee S. Bickley prosecuted the case.
Myron Jacobs is currently in custody. His co-defendant Stacey Jacobs is next scheduled for a status conference on May 22, 2014. The charges against her are only allegations; she is presumed innocent until and unless proven guilty beyond a reasonable doubt.
####
Top
Printable view
Last Modified: 03/04/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov